                                            
                                            




                                            




                                        




            AUDIT OF THE 

  FAIRFAX COUNTY POLICE DEPARTMENT 

EQUITABLE SHARING PROGRAM ACTIVITIES 

          FAIRFAX, VIRGINIA 



         U.S. Department of Justice 

       Office of the Inspector General 

                Audit Division 



        Audit Report GR-30-12-001 

               January 2012

    AUDIT OF THE FAIRFAX COUNTY POLICE DEPARTMENT 

        EQUITABLE SHARING PROGRAM ACTIVITIES 

                   FAIRFAX, VIRGINIA


                        EXECUTIVE SUMMARY


       The purpose of the Department of Justice (DOJ) asset forfeiture
program is to deter crime by depriving criminals the profits and proceeds of
illegal activities while enhancing the cooperation between federal, state, and
local law enforcement agencies. State and local law enforcement agencies
that participate in the seizure of property and funds may receive a portion of
the proceeds, or an equitable share of the forfeiture, to use for law
enforcement purposes.

      The DOJ Office of the Inspector General conducted an audit to assess
the Fairfax County Police Department’s (FCPD) tracking and use of equitable
sharing funds. The audit covered FCPD fiscal years (FY) 2009 through 2010,
beginning on July 1, 2008 and ending on June 30, 2010. During these 2
years, the FCPD received over $ 1,270,000 as a participant in the DOJ
equitable sharing program.

      Our audit found that the FCPD complied with the DOJ guidelines on
submitting equitable sharing requests and properly accounted for and used
equitable sharing assets. However, our review noted that the FCPD could
enhance its efforts to track equitable sharing funds by using its DAG-71 log
to reconcile periodically actual receipts to outstanding sharing requests.




 
    AUDIT OF THE FAIRFAX COUNTY POLICE DEPARTMENT 

        EQUITABLE SHARING PROGRAM ACTIVITIES 

                   FAIRFAX, VIRGINIA


                               TABLE OF CONTENTS


                                                                                             Page

INTRODUCTION ................................................................................ 1 

 
       DOJ Equitable Sharing Program .................................................... 1 

       Fairfax County ........................................................................... 1 

       OIG Audit Approach .................................................................... 2 


FINDINGS AND RECOMMENDATION.................................................. 3 


       Federal Sharing Agreements and Certification Forms........................ 3 

       Accounting for Equitable Sharing Receipts ...................................... 4 

       Use of Equitable Sharing Funds ..................................................... 5 

       Recommendation ........................................................................ 7 


APPENDIX I - OBJECTIVE, SCOPE, AND METHODOLOGY ................... 8 


APPENDIX II - FAIRFAX COUNTY POLICE DEPARTMENT RESPONSE 

    TO THE DRAFT AUDIT REPORT ............................................... 10 


APPENDIX III - OFFICE OF THE INSPECTOR GENERAL ANALYSIS

    AND SUMMARY OF ACTIONS NECESSARY TO CLOSE THE 

    REPORT .................................................................................. 11 

 

 

 
                                                  
 
 
 
 
 
 
 
 


                            INTRODUCTION

      The Department of Justice (DOJ) Office of the Inspector General
conducted this audit to assess the tracking and use of DOJ equitable sharing
funds by the Fairfax County Police Department (FCPD), which has its
headquarters in Fairfax, Virginia. The audit covered Fairfax County fiscal
years (FY) 2009 through 2010, beginning on July 1, 2008 and ending on
June 30, 2010. During these 2 years, the FCPD received over $1,270,000 as
a participant in the DOJ equitable sharing program.

DOJ Equitable Sharing Program

        The DOJ Asset Forfeiture Program is a national law enforcement
initiative that seeks to remove the tools of crime from criminal
organizations, deprive wrongdoers of the proceeds of their crimes, and deter
crime. The program fosters cooperation among federal, state, and local law
enforcement agencies. State and local law enforcement agencies that
directly participate in an investigation or prosecution resulting in a federal
forfeiture may request an equitable share of the net proceeds of the
forfeiture.

       Three DOJ components work together to administer the equitable
sharing program – the United States Marshals Service (USMS), the Justice
Management Division (JMD), and the Criminal Division. The USMS is
responsible for transferring asset forfeiture funds from the DOJ to the
receiving state or local agency. JMD manages the Consolidated Asset
Tracking System (CATS), which is used to compile asset distribution reports
to track federally seized assets throughout an asset’s forfeiture lifecycle.
Finally, the Criminal Division’s Asset Forfeiture and Money Laundering
Section (AFMLS) tracks membership of state and local equitable sharing
program participants, updates the equitable sharing program rules and
policies, and monitors the allocation and use of these shared funds.

Fairfax County

      Established in 1742, Fairfax County is located in Northern Virginia just
south of Washington, D.C., and has over a million residents living across 395
square miles. The FCPD is responsible for public safety, preventing and
detecting crime, enforcing the law, and protecting the rights of all citizens.

      The FCPD has been a member of the DOJ Asset Forfeiture Program
since 1995 and has participated in investigations led by the Federal Bureau
of Investigation, the Drug Enforcement Administration, the Bureau of

                                       1

                                         
                                        
                                        
 


Alcohol, Tobacco, Firearms and Explosives, and the United States Postal
Inspection Service.

OIG Audit Approach

       We tested compliance with what we considered the most important
conditions of the DOJ equitable sharing program. Unless stated otherwise in
this report, we applied the AFMLS Guide to Equitable Sharing for State and
Local Law Enforcement Agencies (Equitable Sharing Guide) as our primary
criteria. The Equitable Sharing Guide outlines procedures for submitting
equitable sharing requests and discusses the proper use and accounting for
equitable sharing assets.

      To conduct the audit, we tested the FCPD’s compliance with the
following three aspects of the DOJ equitable sharing program:

    	 Federal Sharing Agreements and Certification Forms to 

       determine if these documents were complete and accurate. 


    	 Accounting for equitable sharing receipts to determine whether
       standard accounting procedures were used to track equitable sharing
       assets.

    	 Use of equitable sharing funds to determine if equitable sharing
       cash was used for law enforcement purposes.

     See Appendix I for more information on our objective, scope and
methodology.
 
 
 
 
 
 
 
 
 
 
 
 
 
 
 

                                       2

                                         
                                        
                                        
 


                FINDINGS AND RECOMMENDATION

      The FCPD received over $1,270,000 in equitable sharing funds
      from DOJ during the 2-year period beginning July 2008 and
      ending June 2010. The FCPD maintained its asset forfeiture
      revenues in a county-wide bank account but also kept separate
      accounting records for the individual receipts and expenditures
      relating to DOJ equitable sharing funds. We found that overall
      the FCPD adequately accounted for DOJ equitable sharing
      revenues received in this period. However the FCPD did not
      update its DAG-71 log to account for the receipt of these funds.
      We tested FCPD’s use of these funds and noted that these
      expenditures were appropriately documented and used for law
      enforcement purposes. We also noted that the FCPD submitted
      its annual Agreement and Certification Forms in an accurate and
      timely manner.

Federal Sharing Agreements and Certification Forms
       
       According to the DOJ Equitable Sharing Guide, state and local law
enforcement agencies participating in the equitable sharing program must
submit an agreement and certification form at the end of a participating
agency’s fiscal year. The form has two sections – the agreement and the
certification. The agreement portion of the form must be signed by both the
head of the law enforcement entity and a designated official of the local
government. By signing and submitting the agreement, the signatories
agree that the participating agency will follow the equitable sharing program
guidelines. The certification section of the form lists the equitable sharing
funds received, a summary of how the funds received were spent, and any
non-cash assets received.

      We obtained copies of the FCPD’s certification forms for
FYs 2009 and 2010 to determine whether the forms were accurate.
We determined that the forms were prepared and signed by the proper
FCPD officials. To assess the accuracy of the FCPD’s certification
forms, we verified that the total receipts and expenditures reported in
FY 2009 and 2010 in FCPD’s accounting records reconciled to the totals
reported on the certification forms.

       We also reviewed whether both agreement and certification forms
were submitted on time. The DOJ Equitable Sharing Guide states that
participating law enforcement agencies must submit the agreement and
certification form within 60 days of the end of the applicable fiscal year.

                                        3

                                          
                                         
                                         
 


Considering that the FCPD fiscal year ends on June 30, these forms were due
to the DOJ by August 30. The FCPD submitted the certification forms within
the 60-day requirement for both FY 2009 and FY 2010.

Accounting for Equitable Sharing Receipts

       The FCPD conducts collaborative investigations with units of several
different law enforcement agencies. If officers seize assets such as cash and
property items during these investigations, the FCPD completes and submits
a DOJ Form DAG-71 to request a percentage, or share, of the proceeds of
the seized assets. DOJ compiles reports listing the payments made to each
equitable sharing program participant. According to DOJ data, from
FY 2009 to 2010, the FCPD recorded equitable sharing receipts totaling over
$1,270,000, as shown in Exhibit 1.

                          EXHIBIT 1: FCPD EQUITABLE SHARING RECEIPTS
                                        (FY 2009 TO 2010)

                                                                        Equitable Sharing
                                                    Fiscal Year           Receipts ($)
                                                       2009                      1,012,256
                                                       2010                        260,300
                                                            TOTAL             $ 1,272,556
                                         Source: FCPD certification forms

      The DOJ Equitable Sharing Guide requires that law enforcement
agencies use standard accounting procedures and internal controls to track
and account for equitable sharing receipts. Such accounting procedures
include establishing a separate revenue account or code that can be used
only for DOJ equitable sharing funds. The FCPD receives equitable sharing
funds in the same Fairfax County bank account used to receive other federal
payments. During FYs 2009 and 2010, the FCPD received equitable sharing
funds in this account via electronic funds transfers (EFT) made by the USMS
using E-Share.1 However, because E-Share disbursements may include
payments for other funds the USMS provides to Fairfax County, a DOJ EFT is
not necessarily a result of shares of asset proceeds to the FCPD. Therefore,
for each equitable sharing EFT, the USMS sends an automatically-generated
e-mail to a designated FCPD recipient notifying that an equitable sharing
payment has been made.
                                                            
              1
          E-Share is the United States Marshals Service program used to make equitable
sharing payments to federal, state, and local law enforcement agencies through EFT.
E-Share changes equitable sharing payments from a paper U.S. Treasury check to a direct
deposit into the state or local law enforcement agency’s bank account.

                                                                    4

                                                                      
                                                                     
                                                                     
 


       In addition to accounting for equitable sharing receipts, the DOJ
Equitable Sharing Guide requires that the state or local participating law
enforcement agency maintain a DAG-71 log detailing the seizure type, share
amount requested, amount received, and date received. The guide also
requires the log to be updated whenever an E-Share notification is received.
Based upon our review of the FCPD’s log as well as inquiry with FCPD staff,
we found that they did not update the DAG-71 log when the FCPD received
equitable sharing receipts. We did note that their accounting records
reflected sharing receipts received, but the FCPD did not maintain a process
to reconcile the accounting records with the DAG-71 log. Therefore, we
recommend that the Criminal Division require the FCPD to use its DAG-71
log to reconcile periodically actual receipts to outstanding sharing requests.

      To test the accuracy of the equitable sharing receipts for FY 2009 and
FY 2010, we reconciled the total receipts recognized for each fiscal year in
the FCPD’s accounting system to the total equitable sharing receipts the
FCPD reported on its annual agreement and certification forms. We also
tested a judgmental sample of eight receipts totaling $733,350, or more
than 57 percent of the total FCPD reported receipts. We verified that the
FCPD received and properly accounted for these receipts.

Use of Equitable Sharing Funds

      Generally, agencies participating in the DOJ equitable sharing program
should use equitable sharing funds for law enforcement purposes. As
summarized by Exhibit 2, the Equitable Sharing Guide outlines the allowable
and unallowable uses for equitable sharing funds.2




                                                            
              2
        The DOJ Equitable Sharing Guide includes the complete list of allowable and
unallowable uses for equitable sharing funds.
                                                                   5

                                                                     
                                                                    
                                                                    
 


      EXHIBIT 2: SUMMARY OF ALLOWABLE AND UNALLOWABLE USES 

                   FOR EQUITABLE SHARING FUNDS 



              Allowable Uses                              Unallowable Uses
       Law Enforcement Investigations                 Extravagant Expenditures
         Law Enforcement Training                        Food and Beverages
        Law Enforcement Equipment                      Education-Related Costs
                                                Uses Contrary to the Laws of the State
        Asset Accounting and Tracking
                                                          or Local Jurisdiction
                                                Non-Official Government Use of Shared
    Law Enforcement Awards and Memorials
                                                                Assets
         Law Enforcement Travel and              Use of Forfeited Property by Non-Law
               Transportation                           Enforcement Personnel
       Law Enforcement and Detention             Salaries and Benefits of Current Law
                  Facilities                            Enforcement Personnel
Source: DOJ Equitable Sharing Guide


      The FCPD processes expenditure requests in accordance with Fairfax
County procurement processes and must have the approval of both a bureau
commander and the procurement office. If a requestor would like to use
equitable sharing funds, a memorandum detailing the purpose for the
request and an affirmation that the expenditure type is allowable is prepared
by the requestor and approved by the Commander of the Organized Crimes
and Narcotics Unit (OCN), Chief of Police, and the Deputy County Executive.
The Commander of the OCN is responsible for ensuring the allowability of
expenditures made with equitable sharing funds prior to approval.

      For FYs 2009 to 2010 the FCPD spent a total of $1,072,228 in
equitable sharing funds. The FCPD used equitable sharing funds to purchase
items such as law enforcement training equipment, investigative software, a
tactical response vehicle, and firearms.

      We judgmentally sampled 10 transactions totaling $593,368 (or 55
percent of total FCPD equitable sharing outlays during the audit period) to
assess whether these expenditures were supported and allowable under
equitable sharing guidelines. The sample included primarily high-dollar
purchases. We evaluated the nature and purpose of these expenditures and
determined that the sampled items appeared to supplement and not
supplant the FCPD’s budgeted funds. All tested expenses appeared
allowable and conformed with DOJ requirements.




                                            6

                                              
                                             
                                             
 


Recommendation

     We recommend that the Criminal Division require the FCPD to use its
DAG-71 log to reconcile periodically actual receipts to outstanding sharing
requests. 




                                       7

                                         
                                        
                                        
 


                                                                 APPENDIX I

            OBJECTIVE, SCOPE, AND METHODOLOGY

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objective.

Objective

      The objective of the audit was to assess whether the FCPD accounted
for equitable sharing funds properly and used such revenues for allowable
purposes defined by applicable guidelines. We tested compliance with what
we considered were the most important conditions of the Department of
Justice’s (DOJ) equitable sharing program. We reviewed laws, regulations,
and guidelines governing the accounting for and use of DOJ equitable
sharing receipts, including pertinent versions of the Criminal Division’s Guide
to Equitable Sharing for State and Local Law Enforcement Agencies.

      Unless otherwise stated in our report, the criteria used during the
audit were contained in this guide.

Scope and Methodology

       Our audit concentrated on equitable sharing receipts received by the
Fairfax County Police Department (FCPD) from DOJ between July 1, 2008
and June 30, 2010. During FYs 2009 and 2010, there were receipts totaling
more than $1,270,000. We tested a judgmental sample of 8 receipts
totaling $733,350 in our assessment of FCPD receipt accounting and a
judgmental sample of 10 disbursements, totaling $593,368 to evaluate
FCPD’s use of equitable sharing funds. The judgmental sample of FCPD
expenditures constituted approximately 55 percent of the total expenditures
made with equitable sharing funds during the audit period. We applied our
judgmental sampling design to obtain a broad exposure to numerous facets
of the disbursements reviewed, such as dollar amounts. This non-statistical
sample design did not allow us to project results of our testing to the entire
universe of equitable sharing disbursements made in the scope of our audit.



                                        8

                                          
                                         
                                         
 


      We performed audit work at FCPD headquarters in Fairfax, Virginia.
To accomplish the objectives of the audit, we interviewed FCPD officials and
examined records, related revenues, and expenditures of equitable sharing
revenues. In addition, we relied on computer-generated data contained in
the DOJ Detail Distribution Report for determining equitably shared revenues
and property awarded to the FCPD during the audit period. We did not
establish the reliability of the data contained in the DOJ equitable sharing
system as a whole. However, when the data used is viewed in context with
other available evidence, we believe the opinions, conclusions, and
recommendations included in this report are valid.

       Our audit specifically evaluated the FCPD’s compliance with three
essential equitable sharing guidelines: (1) Federal Sharing Agreements and
Annual Certification Reports, (2) Accounting for Equitable Sharing Receipts,
and (3) Use of Equitable Sharing Funds. In planning and performing our
audit, we considered internal controls established and used by the FCPD and
its county government over DOJ equitable sharing receipts to accomplish our
audit objectives. However, we did not assess the FCPD’s financial
management system’s reliability, internal controls, or whether it, as a whole,
complied with laws and regulations.

      Our audit included an evaluation of two county-wide audits conducted
by KPMG, LLP, of the County of Fairfax, of which the auditee is a sub-unit.
The results of these audits were reported in the Single Audit Report that
accompanied the Comprehensive Annual Financial Report for the years
ended June 30, 2009 and 2010. The Single Audit Reports were prepared
under the provisions of Office of Management and Budget Circular A-133.
We reviewed the independent auditor’s assessments, which disclosed no
control weaknesses or significant noncompliance issues related specifically to
the FCPD.




                                       9

                                         
                                        
                                        
 


                                                                                                                             APPENDIX II

                   FAIRFAX COUNTY POLICE DEPARTMENT
                  RESPONSE TO THE DRAFT AUDIT REPORT

                               County of Fairfax, Virginia
                               To protect and enrich the quality of life for the people, neighborhoods, and diverse communities of Fairfax County




    Colonel                  December 16, 2011
    David M. Rohrer
    ChiefofPolice            Troy M. Meyer, Regional Audit Manager
                              U.S. Department of Justice
                             Office of the Inspector General
                             Washington Regional Audit Office
                             1300 N 17th Street, Suite 3400
    Lt. Colonel              Arlington , Virginia 22209
    James A. Morris
    Deputy Chief of Police
    (or Administration       Re: Fairfax County Police Department Equitable Sharing Program Activities Audit

                             Dear Mr. Meyer:
    Lt. Colonel
    Edwin C. Roessler Jr.
    Deputy Chief of          Following please find Fairfax County Police Department's response to the above·
    Police for Patrol        entitled audit.

                             The Organized Crime and Narcotics Division, Fairfax County Police
    Lt. Colonel
    Maggie A. DeBoard        Department (FCPD), maintains a log of all submitted DAG-71 forms including
    Deputy Chief of Police   seizure type , case number, and amount requested. The United Slates
    (or Investigations!      Marshalls Service (USMS) disburses payments made under the Department of
    Operations Support       Justice equitable sharing program as well as other programs to FCPD via
                             electronic funds transfer (EFT). The EFT notification does not reflect the case
                             number as reflected on the DAG·71 , nor is the amount received the same as
                             the amount requested. To distinguish payments made under the equitable
                             sharing program , USMS sends an automatically generated email to FCPD's
                             accountant as notification that an equitable sharing payment has been
                             processed. When the email notification includes the case number and amount
                             requested as reflected on the DAG-71, it will be used to reconcile actual receipts to
                             outstanding DAG-71 requests . It should be noted that FCPD is re-designing
                             the DAG-71 tracking log and reconciliation process to improve internal controls.

                             If you have any questions, please contact me at 703-246-7583.




                             Valecia Witt, Director
                             Financial Resources Division

                             VDW/pas

                             cc: Denise Turcotte, U.S. Department of Justice, Office of the Inspector
                                 General , Criminal Division

                                                                                           Fairfax County Police Department
                                                                                                     4100 Chain Bridge Road
                                                                                                      Fairfax, Virginia 2203 0
                                                                                                     703-246-2195, lTY 7 11
                                                                                                      Facsimile 703·246·3876
                                                                                                      www.fairfaxco unty.gov




                                                                      10

                                                                         
                                                                         
                                                                         
 


                                                              APPENDIX III

               OFFICE OF THE INSPECTOR GENERAL 

              ANALYSIS AND SUMMARY OF ACTIONS 

                NECESSARY TO CLOSE THE REPORT


      The Department of Justice Office of the Inspector General (OIG)
provided a draft of this audit report to the Criminal Division and the Fairfax
County Police Department (FCPD). We incorporated FCPD’s response as
Appendix II of this final report. However, the audit recommendation is
unresolved because the Criminal Division declined to provide comments on
the draft report. The following provides the OIG analysis of FCPD’s response
and a summary of actions necessary to resolve the report recommendation.

    1. Unresolved. In response to the recommendation, the FCPD stated
       that it re-designed the DAG-71 tracking log and reconciliation process
       to improve internal controls.

      However, this recommendation is unresolved because the Criminal
      Division did not respond to the draft report. This recommendation can
      be resolved once the OIG and the Criminal Division reach agreement
      on corrective action.




                                        11

                                           
                                          
                                          
